Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




Physician Incentive Plan Reporting for
  Medicare + Choice Organizations




                     JANET REHNQUIST
                       Inspector General

                         April 2002
                       OEI-05-00-00010
                    OFFICE OF INSPECTOR GENERAL

                                        http://www.oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                      EXECUTIVE                            SUMMARY

PURPOSE

          To assess Physician Incentive Plan (PIP) reporting by Medicare + Choice organizations.


BACKGROUND

          The managed care organizations’ use of physician incentives raised public and Congressional
          concerns about the potential for underutilizing appropriate medical services and discouraging
          needed hospitalizations and referrals to specialists. In response, Congress banned Medicare +
          Choice managed care organizations from linking physician incentives to reducing or limiting
          necessary medical services to specific Medicare patients in managed care programs. The
          Centers for Medicare & Medicaid Services (CMS), formerly the Health Care Financing
          Administration (HCFA), issued regulations on physician incentives in 1996. Under these
          regulations, Medicare + Choice managed care organizations can make no specific payment,
          directly or indirectly, to a physician or physician group as an inducement to reduce or limit
          medically necessary services furnished to any particular enrollee and must provide stop-loss
          coverage for providers who face substantial financial risk in treating Medicare beneficiaries. In
          1997, CMS required that each Medicare + Choice managed care organization annually report
          all contractual arrangements with physicians, provider groups and intermediate entities in order
          to determine compliance with the regulations.


FINDINGS

The CMS physician incentive information collected from managed care
organizations focuses on financial risk and stop-loss coverage for providers

          By design, the data CMS collects is limited to determining the adequacy of stop-loss coverage
          for providers. The physician incentive plan law requires that physicians who might be at
          substantial financial risk in treating beneficiaries have appropriate stop-loss coverage. The
          CMS characterizes Medicare + Choice managed care organization incentive arrangements as
          either compliant or non-compliant with reporting regulations based on a formula using the
          amount of stop-loss coverage and the number of Medicare beneficiaries they treat, called
          patient panel size. The current process is not designed to detect whether needed services are
          being restricted or otherwise affecting the access to medically necessary services.




PIP Reporting                                         i                                   OEI-05-00-00010
The information is incomplete, unreliable, and inconsistent

          The physician incentive data CMS does collect is incomplete, inaccurate, and inconsistent.
          Some managed care organizations do not report all of their contracting arrangements. Few
          managed care organizations routinely verify the information that downstream providers give
          them for physician incentive plan reporting. Likewise, CMS does not routinely verify the data
          managed care organizations submit. The CMS regional offices do not have access to and do
          not review any intermediate entity subcontracts during their biennial Medicare + Choice onsite
          reviews.

Medicare + Choice managed care organizations and their providers report that the
physician incentive plan reporting process is burdensome and costly

          Many Medicare + Choice managed care organizations and their providers expend considerable
          time and financial resources in annually reporting physician incentive plan data to CMS.
          Managed care organizations with 22 Medicare + Choice contracts reported that their direct
          physician incentive plan reporting expenses averaged nearly $25,000 in 2001.

Both CMS and managed care organizations already collect information which
could help determine if incentive arrangement problems exist

          Managed care organizations collect information that measures consumer satisfaction, access to
          care, and quality of care. They also have information about incentives with providers relating to
          utilization and quality targets. While CMS is not required to collect this data, it would assist
          CMS regional office staff in meeting the requirements in the onsite managed care monitoring
          guide relating to quality, access and utilization. The CMS is currently developing a data-driven
          system that will provide a more comprehensive view of managed care organizations’ activities,
          including physician incentives.


RECOMMENDATION

The CMS should replace the current reporting system with other approaches that
are more effective and less burdensome

          The CMS should terminate the current reporting process which represents a considerable
          expense of funds, staff, and computer time for Medicare + Choice managed care organizations.
          Eliminating this process would greatly reduce the reporting burdens for managed care
          organizations and their physicians. Instead of the current annual managed care organization
          reporting of stop-loss coverage, CMS could:

PIP Reporting                                         ii                                 OEI-05-00-00010
                 <	      require attestations regarding physician payment incentives in all managed care
                         organizations and downstream provider contracts;
                 <	      require appropriate stop-loss coverage for all managed care organizations,
                         including downstream providers where incentives are involved;
                 <	      periodically verify, during onsite reviews, the accuracy of attestations and
                         presence of stop-loss coverage and ensure that managed care organization
                         incentives tied to financial goals do not violate the law; and,
                 <	      identify data already collected that may suggest if health care quality and
                         utilization are affected by physician payment incentives.


AGENCY COMMENTS

          We received comments on this report from CMS. They concur with our recommendation and
          are modifying the PIP regulations to reduce administrative burden on Medicare + Choice
          managed care organizations. The CMS is also continuing to implement quality improvement
          assessments that more directly measure health care quality and access in a managed care
          setting. Their comments can be found in Appendix D. Additionally, technical comments were
          provided by CMS and were incorporated where appropriate.




PIP Reporting                                       iii                                 OEI-05-00-00010
                          TA B L E                     OF               CONTENTS

                                                                                                                                 PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


   CMS Collects Incentive Information Related to Stop-Loss Coverage . . . . . . . . . . . . . . . . . . . . . . 6


   Incentive Data Collected Is Unreliable . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


   Incentive Reporting Is A Burden . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


   Other Data Which Is Already Available Could Be Helpful . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


APPENDICES


   A: Glossary of Terms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


   B: CMS Physician Incentive Plan Reporting Instructions to Managed Care Organizations . . . . . . 17


   C: Other Quality Targets Managed Care Organizations Pay Providers Incentives For . . . . . . . . . 32


   D: CMS Comments on this Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35





PIP Reporting                                                      iv                                             OEI-05-00-00010
                               INTRODUCTION

PURPOSE

          To assess Physician Incentive Plan (PIP) reporting by Medicare + Choice organizations.


BACKGROUND

Medicare Managed Care

          The Balanced Budget Act of 1997 established the Medicare + Choice program which
          expanded the types of managed care entities that could contract with the Centers for Medicare
          & Medicaid Services (CMS), formerly the Health Care Financing Administration (HCFA), to
          provide health care services to Medicare beneficiaries. All health plans participating in the
          Medicare + Choice program receive a monthly per capita reimbursement and are responsible
          for providing all necessary services to enrollees. The CMS requires all Medicare + Choice
          managed care organizations to provide access to a sufficient number of providers, including
          physicians, to ensure beneficiaries have adequate access and continuity of care. The managed
          care organizations decide whether to hire salaried providers or contract for providers’ services
          using fee-for-service, capitation, or other reimbursement methods. If a managed care
          organization pays fee-for-service to providers, the providers themselves face no financial risk in
          treating beneficiaries, and there is no financial incentive for providers to withhold any medical
          services to individuals or restrict referrals to non-managed care organizations’ providers for
          out-of-plan treatment. However, under other arrangements, providers may be at financial risk
          depending on the terms of their contracts. (Appendix A contains a glossary of managed care
          terms used in this report.)

Risk Transfer

          Managed care organizations transfer financial risk to providers through certain contractual
          arrangements. Common types of risk transfer arrangements include capitation, percent of
          premium, withholds, and bonuses. Capitation is a set dollar payment per patient per unit of time
          (usually monthly) that is paid to cover a specified set of services and administrative costs
          without regard to the actual number of services provided. A percent of premium is a
          predetermined percentage of overall revenue from beneficiary premiums. A withhold is a
          percentage of payment or set dollar amount that managed care organizations deduct from a
          provider’s payment, and that may or may not be returned, depending on whether specific
          predetermined factors are met. Similarly, a bonus is a payment a provider receives beyond any
          salary, fee-for-service payments, capitation or returned withhold, depending on whether
          specific predetermined factors are met. Any of these incentives may be used to encourage


PIP Reporting                                         1                                   OEI-05-00-00010
          compliance with hospital or pharmacy utilization targets, or tied to results on various measures
          from patient satisfaction surveys.

          If a provider assumes global risk for treating patients, the provider is financially responsible for
          the costs of all the medical services, including hospitalization and pharmacy, that those patients
          incur. The CMS considers providers to be at substantial financial risk when 25 percent or
          more of their potential managed care organization reimbursement depends on referrals they
          make or services they provide. When this substantial financial risk threshold is reached,
          Medicare + Choice managed care organizations must ensure that providers have insurance
          (called stop-loss) that protects providers from serious financial consequences for treating
          Medicare beneficiaries. Providers with more than 25,000 patients are exempted from the stop-
          loss coverage requirements, because it is assumed that any risk would be spread throughout this
          large patient population.

Physician Incentive Plans

          Many managed care organization contracts with physicians and other providers contain
          provisions for transferring risk. These provisions contain financial or other incentives intended
          to influence the practice styles of physicians to achieve specific outcomes or reduce the health
          plan’s costs. Incentives may be included in direct contracts between managed care
          organizations and physicians or provider groups as well as any subcontracts between these
          entities (called downstream providers).

Law Prohibits Use of Certain Physician Incentive Plan Arrangements

          The managed care organization use of physician incentives raised public and congressional
          concerns about the potential for underutilizing appropriate medical services and discouraging
          necessary hospitalizations and referrals to specialists. In response to these concerns, Congress
          banned Medicare + Choice managed care organizations from linking physician incentives to
          reducing or limiting necessary medical services to specific Medicare managed care patients.1

          Section 1876 of the Social Security Act prohibits managed care organizations from entering
          into compensation arrangements with physicians or physician groups that may directly or
          indirectly have an effect of reducing or limiting services to individual enrollees. The managed
          care organizations may, however, operate physician incentive plans if they meet the following
          requirements:

                     <	       No specific payment is made, directly or indirectly, to a physician or physician
                              group as an inducement to reduce or limit medically necessary services
                              furnished to any particular enrollee.


          1
              Public Law 99-509, Omnibus Budget Reconciliation Act of 1986, Section 9313(c)

PIP Reporting                                                  2                              OEI-05-00-00010
                    <	       If a physician or physician group is placed at substantial financial risk for
                             referrals, the managed care organization ensures that stop-loss coverage is
                             provided and conducts periodic surveys of enrollees and disenrollees.
                    <	       The managed care organization must provide CMS with descriptive information
                             sufficient to determine compliance with these requirements.

Regulations Implementing Physician Incentive Plan Law

          The CMS informed managed care organizations that the purpose of the final rule implementing
          the physician incentive plan law is to provide adequate protection to beneficiaries so they have
          access to necessary and appropriate care. To implement this law and its subsequent changes,
          CMS issued several regulations, culminating with major revisions effective in 1996.2

          Under the 1996 regulations, CMS allows Medicare + Choice managed care organizations to
          use physician incentives in their contractual arrangements with Medicare providers if certain
          conditions are met. The managed care organizations:

                    <        cannot curtail access to necessary medical services,
                    <	       must provide stop-loss coverage for managed care organization providers who
                             face substantial financial risk,
                    <        must conduct surveys of beneficiaries and disenrollees when providers are at
                             substantial financial risk, and,
                    <        must generally disclose incentive arrangements to Medicare beneficiaries.

          Any Medicare + Choice managed care organization violating this regulation faces civil monetary
          penalties up to $25,000 for each infraction, as well as possible program sanctions.

Physician Incentive Plan Requirements

          Beginning in 1997, CMS required Medicare + Choice managed care organizations to annually
          report all contractual arrangements involving incentives with physicians and provider groups in
          order to determine compliance with physician incentive plan regulations. The regulations
          specify the kind of information the managed care organizations must report to CMS. The
          managed care organizations must report:

                    <        whether referrals made by the physician or physician group are covered in the
                             incentive plan;
                    <        the type of incentive arrangement or the method used to transfer risk (e.g.,
                             withhold, bonus, capitation);


          2
              42 CFR 422.208, 42 CFR 422.210

PIP Reporting                                           3                                  OEI-05-00-00010
                  <	      the percent of the withhold or bonus the plan uses (used to determine whether
                          physician or group is at substantial financial risk);
                  <       assurance that the physician or group has adequate stop-loss coverage;
                  <       the patient panel size and pooling method used, if any (also used to determine
                          whether a physician or group is at substantial financial risk); and,
                  <       if the managed care organization is required to conduct an enrollee/disenrollee
                          survey.

          These requirements apply to managed care organization direct and indirect contracting
          arrangements with physicians, provider groups, and intermediate entities. In 1999, managed
          care organizations representing 352 Medicare + Choice contracts reported over 8,000
          incentive arrangements with physicians and providers. Less than half of these arrangements
          transferred any risk to providers.

Onsite Review of Physician Incentive Plans and Access to Care

          Another method CMS uses to collect information about physician incentive plan compliance is
          the biennial onsite review of managed care organizations. The CMS regional offices use a
          structured series of general questions on physician incentives when conducting the biennial
          onsite managed care organization reviews. These questions focus on physician incentive plan
          reporting elements and contract language. The CMS regional offices use a structured guide to
          determine whether managed care organizations meet the required reporting and beneficiary
          disclosure rules.

          In addition, CMS instructs its regional offices to review physician incentive plans in their
          analysis of access and availability of care for Medicare beneficiaries. They also examine other
          quality measures in conjunction with physician incentive plans to determine whether
          underutilization of services may be occurring.


SCOPE AND METHODOLOGY

          We used four methods of data collection in this evaluation. We examined physician incentive
          plan data submitted to CMS by managed care organizations, sent a fax survey to Medicare +
          Choice managed care organizations, conducted personal or telephone interviews with staff from
          CMS headquarters and regional offices, and conducted site visits of a purposive sample of
          managed care organizations.
          First, we examined the 1999 data that managed care organizations provided to CMS to
          describe the physician incentive plan landscape and to identify the existence of any significant
          patterns in annual physician incentive plan reporting.

          Second, we sent a fax questionnaire to Medicare + Choice plans, representing 252 managed
          care organization contracts. We excluded Medicare + Choice demonstration

PIP Reporting                                        4                                   OEI-05-00-00010
          contracts and cost contracts and focused on managed care organization risk plans. The
          questionnaire contained a mix of open and closed-ended questions regarding the types of
          physician incentive plan information collected, how accuracy of data is assured, what elements
          of physician incentive plan arrangements are not reported, what non-contractual methods are
          used for arranging incentives, and the presence of incentive arrangements with non-primary care
          staff. We did not request details regarding specific dollar amounts of potential incentives. We
          received 227 of the 252 surveys, a response rate of 90 percent.

          Third, we conducted personal or telephone interviews with staff from CMS headquarters and
          regional offices responsible for monitoring physician incentive plan information. We used a
          structured format of both open and closed-ended questions to elicit information about the
          physician incentive plan data collection process. We asked specific questions about the nature
          and the detail of physician incentive data they collect and review during the biennial onsite
          managed care organization reviews. We asked CMS staff about the roles the regional offices
          play in collecting physician incentive plan data, how they use the physician incentive plan data,
          and what types of feedback they give to managed care organizations. We gathered information
          to determine whether adequate mechanisms exist to report questionable incentive arrangements
          and what actions are taken in those situations. We also asked CMS staff for suggestions about
          data that could be collected in addition to, or instead of, what is currently being collected to
          monitor physician incentive plans. We reviewed the monitoring guides CMS offices use in
          conducting their biennial onsite reviews of Medicare + Choice plans.

          Finally, to collect more in-depth information, we conducted onsite visits and performed follow-
          up interviews to a purposive sample of 38 managed care organizations in 9 metropolitan areas.
          The metropolitan areas selected represent a diverse cross-section of annual physician incentive
          plan reporting characteristics. We visited a mix of managed care organizations in these
          metropolitan areas that CMS determined to be either compliant or non-compliant in their stop-
          loss arrangements. We visited 38
          Medicare + Choice managed care organizations located in Denver, Dallas, Detroit/Ann Arbor,
          Miami/Ft. Lauderdale, Hartford/New Haven, Los Angeles, San Francisco, Oklahoma
          City/Tulsa, and Seattle. We conducted all onsite visits in June and July 2000.

          During these onsite visits with the managed care organizations, we used a structured discussion
          guide containing open-ended questions to gather in-depth information about the managed care
          organizations, the local managed care environment, history of incentive use, and annual
          physician incentive plan reporting and oversight.

          We conducted our review in accordance with the Quality Standards for Inspections issued
          by the President’s Council on Integrity and Efficiency.




PIP Reporting                                         5                                  OEI-05-00-00010
                                         FINDINGS

The CMS physician incentive information collected from
managed care organizations focuses on financial risk and
stop-loss coverage for providers

          The physician incentive plan law requires that physicians who might be at substantial financial
          risk in treating beneficiaries have appropriate stop-loss coverage. The CMS requires Medicare
          + Choice managed care organizations to report whether they transfer risk to providers. Of
          8,651 incentive arrangements reported to CMS by managed care organizations in 1999, 3,306
          contracts transferred risk globally (for all medical services delivered) to providers, provider
          groups, and intermediate entities, and 2,229 contracts transferred risk specifically for referrals.
          The managed care organizations also report the type of incentive arrangements they have, but
          do not provide any details of specific proprietary financial arrangements they have with
          providers.

          The CMS characterizes Medicare + Choice managed care organization incentive arrangements
          as either compliant or non-compliant with reporting regulations based on a formula using the
          amount of stop-loss coverage and the number of Medicare beneficiaries they treat, called
          patient panel size. In 1999, CMS determined that 193 (5 percent) out of 3,606 Medicare +
          Choice arrangements where risk transfer was reported were non-compliant due to inadequate
          stop-loss coverage. If an arrangement is non-compliant, CMS enters this information into the
          physician incentive plan database and sends a notice to the managed care organization
          informing them of the decision. The CMS does not routinely require managed care
          organizations to take corrective action on these non-compliant arrangements. The CMS
          acknowledges conducting minimal compliance activities in 1999 due to efforts to implement the
          new electronic PIP data submission system.

          The CMS provides little feedback to managed care organizations on their physician incentive
          plan submissions. Only 26 percent (59 of 227) of managed care organizations responding to
          our survey report having any CMS review of the physician incentive plan data they submitted.
          Most of these managed care organizations report that CMS regional offices’ review occurred
          during their biennial monitoring process. During our interviews with CMS regional staff, we
          learned that the degree of oversight of physician incentive plans varies among offices. Two
          regional offices reported that they did not review the physician incentive plan disclosure during
          the last biennial monitoring review (one regional office was receiving training at the time of our
          review). The remainder of the regional offices reported that they reviewed some physician
          incentive plan data during their most recent biennial review. Several CMS regional staff
          volunteered that the type of incentive information collected from Medicare + Choice plans is
          not useful to them in conducting their onsite reviews. The current process is not designed to


PIP Reporting                                          6                                   OEI-05-00-00010
          detect whether needed services are being restricted or otherwise affecting the access to
          medically necessary services.


The information is incomplete, unreliable, and inconsistent

          During our onsite visits, managed care organization representatives reported various problems
          relating to the completion of the annual physician incentive plan disclosure. Although CMS
          requires disclosure even if incentive arrangements do not exist, three managed care
          organizations we spoke with report only those arrangements where incentives are involved.

          Some managed care organizations report that they have the contracted physicians, groups and
          other entities complete the physician incentive plan reporting, and these providers do not always
          understand the terms and definitions used by CMS or the importance of the data. Three
          managed care organizations told us that some of the terms used in the physician incentive plan
          disclosure form are confusing and need to be better defined. Most Medicare + Choice plans
          that contract with intermediate entities (111 of 169 contracts) accept the information that
          downstream providers gave them for physician incentive plan reporting. A few managed care
          organizations indicated they would call the downstream provider if a number reported looked
          questionable.

          The CMS only requires intermediate entities to report incentives if they are contained in
          subcontracting arrangements with physicians or physician groups. Some managed care
          organizations do not report the details of arrangements intermediate entities have with their
          subcontracted providers. One managed care organization said they do not report beyond the
          first tier or the direct contract with the managed care organization. Another said they believed
          there was a three-tier (contract, subcontract, sub-subcontract) limit in applying the physician
          incentive plan requirements. Downstream providers may further subcontract with other
          providers. Another managed care organization said they do not collect incentive data if
          providers are employed by a provider group or intermediate entity. In this case, the managed
          care organization does not consider the providers to be downstream providers since the
          contracting entity employs them. The CMS does not know how many providers in
          downstream contracts with intermediate entities are involved in treating Medicare + Choice
          beneficiaries. The CMS regional offices do not have access to and do not review any
          intermediate entity subcontracts during their biennial Medicare + Choice onsite reviews.

          As a result, CMS (or in many cases, the contracting managed care organization) does not
          know whether the downstream contracts contain incentives that violate the law. In our fax
          survey, we found that only 31 of 166 Medicare + Choice contracts have language in their
          contracts with intermediate entities that details what incentives the law prohibits.

          We found that managed care organizations frequently offer incentives to intermediate entities,
          most often for meeting targeted financial goals (78 of 169 managed care


PIP Reporting                                         7                                   OEI-05-00-00010
          organizations contracts with intermediate entities, or 46 percent). The incentives in managed
          care organization contracts with intermediate entities refer only to those entities and not to
          contracts they have with downstream providers.


Medicare + Choice managed care organizations and their
providers report that the physician incentive plan reporting
process is burdensome and costly

          Medicare + Choice managed care organizations expressed several concerns regarding
          physician incentive plan reporting. Many volunteered that collecting the information represents
          a costly and time-consuming burden for their physician providers. Even though many managed
          care organizations credit CMS for designing an electronic reporting format, all managed care
          organizations face a physician incentive plan reporting burden, even if their plans do not offer
          incentives to their providers. Our survey reveals that 24 of 227 managed care organization
          contracts had no incentives at all in 1999. (Appendix B contains CMS’ instructions to
          managed care organizations for submitting 1999 physician incentive plan data.)

          While we did not independently verify their estimates, managed care organizations with 22
          Medicare + Choice contracts report that their direct physician incentive plan reporting expenses
          averaged nearly $25,000 in 2001. These plans report using between 150 and 550 staff hours
          to collect, consolidate, review for obvious errors, and enter the data, with costs ranging from
          $30 to $50 per hour. Humana, which operates multiple
          Medicare + Choice plans, estimates expending 550 hours and $86,000 to gather the necessary
          physician incentive plan reporting data in 2001.
.
          Some managed care organizations pass the burden of completing the physician incentive plan
          reporting on to providers. In States like California where physicians may participate in many
          managed care plans, this burden can be substantial, and as previously noted, may result in
          inaccurate physician incentive plan reporting. To mitigate the burden on their providers, the
          California Medicare + Choice plans created the Interagency Coordinated Effort. The
          Interagency Coordinated Effort makes a single request to providers for physician incentive plan
          information, secures an attestation of accuracy from the providers, and distributes the results to
          each managed care organization with which the providers are associated. This effort
          substantially reduced the “hassle factor” for providers, according to California managed care
          organizations. However, even this cooperative effort is expensive for managed care
          organizations. Kaiser Permanente, with mainly salaried physicians in its plan, estimates
          spending $30,000 to collect and report the calendar year 2001 physician incentive plan data.




PIP Reporting                                         8                                   OEI-05-00-00010
Both CMS and managed care organizations already collect
information which could help determine if incentive
arrangement problems exist

          While the current physician incentive plan reporting serves as a useful reminder to managed
          care organizations of the need for stop-loss coverage, its effectiveness is limited. The current
          physician incentive plan reporting does not capture specific information about when or why
          managed care organizations pay physician incentives or how these incentives may relate to
          patient care. Nevertheless, data that could help CMS to determine this can be obtained for this
          purpose.

          The Secretary has established a moratorium on new encounter data reporting while the
          department assesses the priorities and burdens of such reporting requirements. We found
          several examples where physician incentive data can be related to quality of care which CMS
          can consider using once the moratorium is lifted. During its onsite reviews, CMS could
          examine this information for potential outliers or trends, recognizing that not all anomalies in
          treatment are necessarily related to physician incentives. In the following sections, we identify
          several types of these data.

Managed Care Incentives for Meeting Targeted Financial or Utilization Goals

          The following table represents information about utilization and referral targets reported to us by
          managed care organizations which the CMS physician incentive reporting and onsite review
          process does not collect. The Medicare + Choice managed care organizations identified the
          number of contracts they had that paid incentives for meeting utilization and referral targets.
          Utilization goals involve managed care organizations identifying a targeted dollar amount of
          medical expenditures for a specific time period. If members’ use of medical services results in
          expenditures that equal or exceed the targeted amount, no incentive is paid. Conversely, if the
          actual medical expenditures are below the target, managed care organizations use this surplus to
          pay the providers a bonus. Frequently, the managed care organizations and the contractee
          share this surplus.




PIP Reporting                                          9                                   OEI-05-00-00010
                                            Utilization and Referrals

 Target Areas                        Contracts with              Contracts with         Contracts with
                                  Individual Physicians         Physician Groups     Intermediate Entities

                                    Yes          No            Yes           No        Yes              No

 Financial Goals                    44           126            73          109        78               91

 Utilization Goals                  24           146            29          153        31              138

 Emergency Room Utilization         32           138            26          156        30              139

 Hospitalization Utilization        39           131            52          130        44              125

 Referrals to Specialists           20           150            25          157        26              143



          Targeted utilization incentives may induce providers to withhold necessary medical treatment,
          hospitalizations, or referrals. To discourage restricting access and utilization of appropriate
          care, some managed care organizations reported limiting the amount contractees may collect
          from these types of incentives.

Linkages Between Physician Incentives and Access to Quality Care

          There are several quality indicators CMS currently uses to help determine whether Medicare
          managed care beneficiaries have access to appropriate medical services. The CMS currently
          monitors consumer satisfaction, access to care, and quality of care using performance measures
          such as the Health Plan Employer Data and Information Set, the Medicare Health Outcomes
          Survey, and the Consumer Assessments of Health Plans Study surveys. The CMS also has
          developed the Quality Improvement System for Managed Care Standards and Guidelines.
          These performance measures were developed to strengthen managed care organizations
          operation and performance in the areas of quality measurement and improvement, and the
          delivery of health care and enrollee services.

          While CMS regional offices review these quality factors in determining whether managed care
          organizations provide access to quality care for Medicare patients, under the current physician
          incentive plan reporting process, CMS has not routinely examined these quality or performance
          measures to help determine if access or underutilization of services are affected by these
          incentives. Half of the CMS regional offices we surveyed indicated that using multiple sources
          of information as indicators of potential incentive arrangement problems would be most
          effective in examining quality of care issues during their onsite reviews. They also felt
          irregularities revealed by reviewing the nature of the incentives could be a basis for a more
          extensive onsite review of physician incentive plans. Most thought the physician incentive plan
          information currently collected should be supplemented with information from other sources in
          order to be useful. New CMS


PIP Reporting                                          10                                   OEI-05-00-00010
          onsite review guidelines direct regional offices to link physician incentive plan information with
          these other sources of quality and access indicators during their reviews.

Managed Care Incentives for Meeting Targeted Quality Goals

          In addition to CMS’ physician incentives information, Medicare + Choice managed care
          organizations routinely gather information to internally monitor their own performance that might
          also suggest problems with physician incentive plans. For example, some managed care
          organizations track information such as beneficiary disenrollment rates and underutilization
          trends as well as maintaining and reviewing beneficiary complaint logs. The physician incentive
          plan regulations also require Medicare + Choice managed care organizations to conduct
          consumer satisfaction surveys when their contracts place physicians or physician groups at
          substantial financial risk. The CMS regional offices do not routinely use these data from
          Medicare + Choice plans in reviewing the appropriateness of physician incentive plans.

          For example, the Patient Access and Services table below illustrates the number of Medicare +
          Choice contracts that managed care organizations reported to us containing incentives for
          patient access and service targets. (See Appendix C for other quality incentives managed care
          organizations reported to us). Some managed care organizations give incentives to providers
          that keep their practice open to new Medicare beneficiaries. Also, some managed care
          organizations pay incentives to providers achieving both specified financial goals and targeted
          satisfaction levels. One managed care organization volunteered that it would not pay an
          incentive if a provider met the financial or utilization goals without meeting a specified level of
          patient satisfaction.


                                           Patient Access and Services

 Target Areas                        Contracts with             Contracts with            Contracts with
                                  Individual Physicians          Physician             Intermediate Entities
                                                                     Groups

                                    Yes           No           Yes            No        Yes              No

 Increased Hours for Patient         22          148           10             172        3               166
 Care

 Patient Satisfaction                36          134           28             154       17               152

 Accepting New Patients              26          144           17             165        6               163



          The CMS is currently developing a data-driven system that will provide a more comprehensive
          view of managed care organization activities, including physician incentives. In addition to these
          quality measures, CMS is also involved in a major national initiative to reduce the administrative
          burden for health plans by simplifying reporting requirements and data requests.


PIP Reporting                                             11                                  OEI-05-00-00010
                            RECOMMENDATION

          The current CMS process that requires managed care organizations to annually report stop-
          loss coverage data for some incentive arrangements conveys the importance of risk protection
          to managed care organizations, providers, and provider groups who disclose this information.
          The current process is not designed to detect whether needed services are being restricted or
          otherwise affecting the access to medically necessary services.

          We think the physician incentive plan process should be aimed more directly at ensuring
          Medicare + Choice beneficiaries’ access to care. We recognize there is no single measure that
          captures medical underutilization, limiting referrals to specialists, or otherwise withholding
          needed medical services. And, while a direct causal link between incentives and access to care
          would be difficult to establish, measures already used by CMS and managed care organizations
          could be identified that, either singly or in aggregate, may indicate whether beneficiaries’ care is
          influenced by Medicare + Choice incentive arrangements.


The CMS should replace the current reporting system with
other approaches that are more effective and less
burdensome

          The CMS should terminate the current reporting process which represents a considerable
          expense of funds, staff, and computer time. Eliminating the annual physician incentive plan
          reporting is consistent with CMS’ desire to lessen administrative burdens for Medicare +
          Choice managed care organizations and Medicare providers. We recommend CMS take the
          following steps to replace the physician incentive plan process.

Require attestations regarding incentives in all managed care organization and
downstream provider contracts

          To address congressional concerns that managed care organization incentives may negatively
          impact Medicare beneficiaries’ access to appropriate medical care, CMS could require
          managed care organizations to obtain and retain attestations from all their contractees that
          incentives cannot be used to limit access to medically necessary care. These attestations can be
          made part of the managed care organization contracts with physicians, provider groups, and
          intermediate entities. Physician groups and intermediate entities should also comply with this
          requirement, as well as any downstream contracts they may have. The managed care
          organizations should obtain new attestations only whenever contracts affecting Medicare
          beneficiaries are changed.




PIP Reporting                                         12                                    OEI-05-00-00010
Periodically verify the accuracy of attestations and presence of stop-loss
coverage, including downstream providers where incentives are involved

          The CMS regional offices could include verification of managed care organization incentive
          attestations and appropriateness of stop-loss coverage during their managed care organization
          onsite reviews. During these reviews, if a managed care organization contracts with provider
          groups or intermediate entities, CMS regional offices could select a sample of downstream
          provider contracts to review for incentive attestations and stop-loss coverage. In addition,
          CMS could ensure that any incentives or withholds related to meeting goals for achieving
          financial, utilization, emergency room, hospitalization, or referral targets do not restrict
          Medicare beneficiaries’ access to needed medical services or quality medical care.

Identify data already collected by managed care organizations that may indicate if
Medicare + Choice beneficiaries are being denied access, services, or referrals as
a result of physician incentives

          The CMS managed care review guide used by regional offices requires examination of
          utilization reviews and physician incentive plans to ensure that existing practices do not interfere
          with or cause delays in services. We believe the type of incentive data we collected in our
          survey from managed care organizations relating to financial and utilization goals could serve as
          potential leads for CMS regional offices in helping them make these determinations.

          The CMS must also make determinations about the quality of care Medicare + Choice plans
          provide to Medicare patients. We believe the types of quality incentives these plans identified
          in our survey may also help CMS in their Medicare + Choice quality decisions. In combination
          with this data, CMS regional offices could request and review beneficiary complaint logs,
          underutilization studies, or other data that managed care organizations already maintain that may
          indicate whether or not providers withhold appropriate medical treatment from beneficiaries as
          a result of physician incentives.

          This recommendation is consistent with CMS’s effort to reduce managed care organizations’
          administrative burdens in that it recommends the use of data already collected by managed care
          organizations. The CMS should consider the need to identify appropriate and inappropriate
          incentives as they formulate a more streamlined approach to data collection and use of the data
          in evaluating the performance of managed care organizations.


AGENCY COMMENTS

          We received comments on this report from CMS. Additionally, technical comments were
          provided and incorporated where appropriate. CMS concurs with our recommendation and
          are modifying the PIP regulations to reduce administrative burden on Medicare + Choice
          managed care organizations. CMS is also continuing to implement performance assessments
          that more directly measure health care quality and access in a managed care setting. Comments
          can be found in Appendix D.

PIP Reporting                                          13                                   OEI-05-00-00010
                                                                                          APPENDIX A




                                        Glossary of Terms


          All definitions were taken or adapted from the CMS website (except where noted by an
          asterisk*).

          Bonus — A payment a physician or entity receives beyond any salary, fee-for-service
          payments, capitation or returned withhold. Bonuses and other compensation that are not based
          on referral levels (such as bonuses based solely on quality of care, patient satisfaction or
          physician participation on a committee) are not considered in the calculation of substantial
          financial risk.

          CAHPS (Consumer Assessments of Health Plans Study) — A major national initiative,
          sponsored by the Agency for Health Care Research and Quality, to develop a set of
          standardized consumer satisfaction instruments, user manuals, and recommended report
          formats. Surveys include both a standardized satisfaction survey for enrollees and a
          disenrollment survey that gathers information from beneficiaries leaving a health plan about their
          experiences receiving care and their reasons for leaving the plan. The CMS requires all
          Medicare contracting managed care organizations (MCOs) to participate in the CAHPS
          surveys.

          Capitation — A set dollar payment per patient per unit of time (usually monthly) that is paid to
          cover a specified set of services and administrative costs without regard to the actual number of
          services provided. The services covered may include a physician's own services, referral
          services or all medical services.

          Downstream provider*— Refers to any physician, provider group, or intermediate entity
          who contracts with these entities to provide medical services to MCO patients. This provider
          does not contract directly with the Medicare + Choice MCO, it is a subcontractor.

          Global risk* — Transfers financial risk to the provider for all medical services to a
          beneficiary.

          HEDIS (Health Plan Employer Data and Information Set) — Set of standardized
          performance measures designed to assess the quality of health care and services provided by
          managed care plans. The HEDIS was developed by the National Committee for Quality
          Assurance (NCQA) to provide purchasers and consumers with the ability to evaluate the
          quality of different health plans, and to make their plan decisions based upon demonstrated
          value rather than simply on cost.


PIP Reporting                                         14                                   OEI-05-00-00010
          Intermediate entities — Entities which contract between an MCO or one of its
          subcontractors and a physician or physician group, other than physician groups themselves. An
          IPA is considered an intermediate entity if it contracts with one or more physician groups in
          addition to contracting with individual physicians.

          HOS (Medicare Health Outcomes Survey) — Formerly known as Health of Seniors, this
          HEDIS measure is the first outcomes measure to be used in the Medicare population and
          represents the largest survey effort ever undertaken by CMS. All managed care plans with
          Medicare + Choice contracts are participating. It is a longitudinal,
          self-administered survey which CMS plans to use to focus quality improvement activities, to
          provide comparative information for beneficiaries to make informed decisions when choosing a
          health plan, and to assess the performance of health plans and integrate valid and reliable
          performance measures into the contracting process.

          Panel size — The number of patients served by a physician or physician group. If the panel is
          greater than 25,000 patients, then the physician group is not considered to be at substantial
          financial risk because the risk is spread over the large number of patients. Stop-loss and
          beneficiary surveys would not be required.

          Percent of premium*— Payment a physician or entity receives that is a predetermined
          percentage of overall revenue from beneficiary premiums.

          Physician group — A partnership, association, corporation, individual practice association
          (IPA), or other group that distributes income from the practice among members. An IPA is a
          physician group only if it is composed of individual physicians and has no subcontracts with
          other physician groups.

          Physician incentive plan — Any compensation arrangement at any contracting level between
          an MCO and a physician or physician group that may directly or indirectly have the effect of
          reducing or limiting services furnished to Medicare or Medicaid enrollees in the MCO.
          Managed Care Organizations must report on physician incentive plans between the MCO itself
          and individual physicians and groups and also between groups or intermediate contracting
          entities (e.g. Physician-Hospital Organizations) and individual physicians and groups. The
          MCO only needs to report the details on physician incentive plans between groups and
          individual physicians if those physicians are placed at substantial financial risk by the group's
          incentive arrangement.

          Potential payments — The maximum anticipated total payments (based on the most recent
          year's utilization and experience and any current or anticipated factors that may affect payment
          amounts) that could be received if use or costs of referral services were low enough. These
          payments include amounts paid for services furnished or referred by the physician/group, plus
          amounts paid for administrative costs. The only payments not included in potential payments
          are bonuses or other compensation not based on referrals (e.g., bonuses based on patient
          satisfaction or other quality of care factors).

PIP Reporting                                        15                                   OEI-05-00-00010
          QISMC (Quality Improvement System for Managed Care Standards and Guidelines)
          — Key tools for use by CMS and States in implementing the quality assurance provisions of
          the Balanced Budget Act of 1997, as amended by the Balanced Budget Refinement Act of
          1999. For Medicare, the QISMC document is equivalent to a program manual. As such, the
          document represents CMS’ administrative interpretation of the Medicare + Choice
          requirements relating to an organization’s operation and performance in the areas of quality
          measurement and improvement and the delivery of health care and enrollee services. The
          standards and guidelines are derivatives of the regulatory requirements, and are necessary to
          implement them
.
          Referral services — Any specialty, inpatient, outpatient or laboratory services that are
          ordered or arranged, but not furnished directly. Situations may arise where services not
          normally considered referral services will need to be considered referral services for purposes
          of determining if a physician/group is at substantial financial risk. Also, if a physician group
          contracts with an individual physician or another group to provide services which the initial
          group cannot provide itself, any services referred to the contracted physician/group should be
          considered referral services.

          Stop-loss coverage — Used to ensure that providers face only certain financial limits in
          treating Medicare managed care beneficiaries. The CMS considers $5,000 for outpatient
          services and $30,000 for inpatient treatment to be reasonable stop-loss limits. Without stop-
          loss protections, providers treating one or more high cost patients could face catastrophic
          financial repercussions.

          Organizations whose contracts or subcontracts place physicians or physician groups at
          substantial financial risk must ensure that those providers have either aggregate or per-patient
          stop-loss protection. The aggregate stop-loss protection requires coverage of at least 90
          percent of the costs of referral services that exceed 25 percent of potential payments. The
          per-patient stop-loss protection requires coverage of 90 percent of the costs of referral services
          that exceed specified per-patient limits.

          Substantial financial risk — An incentive arrangement that places the physician or physician
          group at risk for amounts beyond the risk threshold, if the risk is based on the use or costs of
          referral services. The CMS considers providers to be at substantial financial risk when 25
          percent or more of their potential MCO reimbursement depends on referrals they may make or
          services they may provide.

          Withhold — A percentage of payments or set dollar amounts that are deducted from a the
          service fee, capitation or salary payment, and that may or may not be returned, depending on
          specific predetermined factors.




PIP Reporting                                        16                                   OEI-05-00-00010
                                                                                              APPENDIX B


                        HCFA PIP reporting instructions to MCOs


                          MEDICARE MANAGED CARE ORGANIZATIONS
                     PHYSICIAN INCENTIVE PLAN DISCLOSURE INSTRUCTIONS

General Instructions for Submission: Hard copy Physician Incentive Plan (PIP) Disclosure is required only
for new applicants for Medicare+Choice Contracts, except for Private Fee For Service Plans or non-network
Medicare Savings Account Plans. Organizations that already hold a Medicare contract with HCFA will benefit
from disclosing electronically. (see PIP Requirements for 1999 on HCFA’s web site:
www.hcfa.gov/medicare/physincp/pip-info.htm)

A hard copy disclosure must be included in the completed application, as directed within the application form.
The disclosure should represent physician incentive arrangements for providers within the Managed Care
Organization’s (MCO) network at the time the application is submitted. A Medicare PIP disclosure includes:
C       The disclosure Cover Sheet - This sheet should be the first page of the PIP submission.
C	        PIP Disclosure Form - This form may be duplicated as many times as necessary to capture all of the
          arrangements in effect amongst the applicant’s provider contractors and subcontractors.

Using the HCFA PIP Worksheet: The PIP Worksheet should be used as a guide in determining if there is
substantial financial risk in any provider arrangement and to assist the MCO in entering data on the disclosure
form. MCOs may modify the Worksheet for their internal use as long as the necessary information is captured
that will document the data upon audit by regulators. Generally, a separate Worksheet should be used for each
type of contractual relationship. Reproduce as many of these forms as needed. Do not submit the Worksheets,
but retain them for review by regulators.

The MCOs should analyze the data from different providers to determine whether information from the same
type of contracting entity can be aggregated for disclosure to regulators.

MCOs need to determine if they have received all information from their contractors down to the level of
physicians, even if the providers bear no risk or there is no substantial financial risk.
C       An intermediate entity should report arrangements with its medical groups and the medical groups’
        physicians. Even if there is no substantial financial risk between the MCO and the intermediate entity,
        the lower levels must be disclosed.
C       A medical group should report arrangements with its physicians, even if there is no substantial financial
        risk between the MCO and the medical group.

Enter the information from the Worksheet on the appropriate lines on the Disclosure Form after checking the
specific contractual relationship being disclosed.

Using the PIP Disclosure Form: At the top of the Disclosure Form, print the name of the MCO, give the
Medicare contract number, and the reporting year.

Nine contractual relationships are listed. Disclose one type of relationship on each Form you complete. Submit
as many Forms as you need to represent all of the arrangements that serve the MCO’s Medicare enrollees.

     PIP Reporting                                       17                                     OEI-05-00-00010
        (1)           MCO to physician group
        (2)           MCO to intermediate entity
        (3)           MCO to individual physician
        (4)           Intermediate entity to physician group
        (5)           Intermediate entity to physician
        (6)           Physician group to physician group
        (7)           Physician group to physician
        (8)           Physician to physician
        (9)           Intermediate entity to intermediate entity

Each submission from an MCO must include contractual relationships (1), (2) or (3), but MCOs may have
multiple arrangements and need all three. Then the MCO must disclose the subcontracting arrangements to the
level of the physician. All disclosures relating to one hierarchy of contracts should be stapled together. The
hierarchies are:

        Selection of:      (1)         MCO to physician group requires a disclosure of:
                   (7)          Physician group to physician OR (6)           Physician group to physician group
                   If (6) is selected, you must have (7) to disclose incentives to physicians
                   There can be selection of: (8)          Physician to physician [this is not required]

        Selection of:   (2)         MCO to intermediate entity requires disclosure of :
                (4)         Intermediate entity to physician group OR
                (5)         Intermediate entity to physician OR
                (9)         Intermediate entity to intermediate entity
                The intermediate entity can have multiple contracting arrangements.


                   If (4) is selected, you must have (7) to disclose incentives to physicians
                   If (9) is selected, you must have (4) or (5) to disclose incentives to subcontractors
                   There can be selection of: (8)         Physician to physician [this is not required]

        Selection of:   (3)         MCO to individual physician does not require any subcontract.
                There can be selection of: (8)     Physician to physician [this is not required]

Single or aggregate disclosure: The Disclosure Form may reflect a single incentive arrangement if that is a
unique arrangement. However, MCOs should aggregate information on one Form for contractual
arrangements that are substantially the same and the stop-loss requirements are the same.

        For example, if an MCO contracts with 100 medical groups under a very similar capitation
        payment that does not pass referral risk to the groups, the MCO should check category one on
        the Disclosure Form and disclose all 100 on one Form. If 55 medical groups do not pass risk to
        their doctors and these 55 groups have a total of 450 physicians under this no risk compensation,
        then the MCO should check category 7 on a new Disclosure Form and disclose all 450 on the
        Form. Similarly, the MCO should disclose the physician group-physician incentive arrangements
        for the other 45 groups, aggregating those physicians who are placed at substantially the same
        risk and who have the same stop loss requirements, if the risk exceeds the SFR cutoff. Staple
        together all the forms that relate to the 100 medical groups.

   PIP Reporting                                             18                                   OEI-05-00-00010
Entering the information: After checking the relationship you are disclosing, follow the directions below.

1.	        On line 1.A., give the name of a single provider (e.g., the intermediate entity, physician group, or
           individual physician) when this is the party who receives payment under the provider contract to which
           the Disclosure Form applies.

           On line 1.B., give the number of aggregated providers whose arrangements are being disclosed. (See
           the discussion above.) Do not send lists of provider names. For example, if #1 is selected, then give the
           # of physician groups.

           Line 1.C. asks for disclosure of Federally Qualified Health Centers and Rural Health Clinics
           (FQHC/RHCs). Please distinguish FQHC/RHCs by using a separate Disclosure Form to report each
           FQHC/RHC, however you may aggregate those with substantially the same incentive arrangements. If
           the MCO is owned or controlled by a consortium of FQHC/RHCs or has FQHC/RHCs in its network,
           be sure to indicate this on the cover sheet.

           Line 1.D. applies only to physicians of medical groups (selection of #7 contracting type) and asks for a
           breakout of the number of physicians who are members of the group and those who independently
           contract with the group. Members are typically owners, partners, or employees of the medical group.

           If either arrangement with providers that are intermediate entities (IE) is selected on the Disclosure
           Form (either #2 or #9), complete items 1.A - 1.C only since stop loss requirements do not apply to
           intermediate entities (IE). However, fully complete disclosures for IE’s relationships with provider
           groups and their physicians (#4 and #7) and IE with individual physicians (#5) because stop loss
           requirements apply to these levels.

2.	        Question 2 identifies whether the incentive arrangement transfers any risk. A capitation payment is
           considered a transfer of risk for this question, even if the capitation is for services provided only by the
           contracting physician or physician group. [This information is found on Question 2a of the Worksheet.]

           Check “yes”or “no” as applicable. If “no” is checked, then this disclosure is complete. If “yes” is
           checked, identify the type of risk transfer; then go to Question 3.

           Risk transfer choices are: “capitation, bonus, withhold, percent of premium or other.” Check the
           appropriate choice or choices; more than one choice should be checked if the arrangement has
           features of each type of risk-sharing.

           A choice of “Other” is provided if a combination of the four types of risk arrangement does not define
           the arrangement. For the purpose of this Disclosure Form, the obligation for the provider to fund deficits
           is considered as a “withhold.” A bonus for low utilization of referral services is considered to be risk
           transference.

           The risk-sharing arrangement may be described briefly on the Disclosure Form, particularly if ‘other’ is
           selected. [This information is found on Question 3 of the Worksheet.]

3.	        Question 3 identifies whether risk is transferred for referrals. [This information is found on Question 2b
           of the Worksheet.] Check “yes”or “no” as applicable. A bonus for low utilization of hospital,
           specialist or other services is considered to be a risk for referral services. If “no” is checked, then this
           disclosure is complete. If “yes” is checked, go to Question 4 to identify the type of risk transfer.

      PIP Reporting                                          19                                      OEI-05-00-00010
4.	        Question 4 identifies the type of risk-sharing arrangement. [This information is found on Question 3 of
           the Worksheet.] See #2 above for instructions on identifying risk arrangements.

5.         The percentage of risk attributable to referrals only should be stated in Question 5. This percentage
           corresponds to the “% Of Total Compensation At Risk For Referrals” from Question 3 of the
           Worksheet. If the percentage is equal to or below 25 %, the arrangement is not considered to be at
           substantial financial risk and this disclosure is complete. If above 25 percent, proceed to Question 6.

6.	        Information for Question 6, about the number of patients, is found on Question 1 of the Worksheet.
           Specific criteria must be met before pooling is allowed, as stated in regulations. Any entity that meets all
           five criteria (below) required for the pooling of risk will be allowed to pool that risk in order to determine
           the amount of stop-loss required by the regulation. If the number of patients is 25,000 or fewer, then go
           to Question 7. If greater than 25,000, the disclosure is complete.

           (1)	       Pooling of patients is otherwise consistent with the relevant contracts governing the
                      compensation arrangements for the physician or group (i.e., no contracts can require risk be
                      segmented by MCO or patient category);
           (2)	       The physician or group is at risk for referral services with respect to each of the categories of
                      patients being pooled;
           (3)	       The terms of the compensation arrangements permit the physician or group to spread the risk
                      across the categories of patients being pooled (i.e., payments must be held in a common risk
                      pool);
           (4)	       The distribution of payments to physicians from the risk pool is not calculated separately by
                      patient category (either by MCO or by Medicaid, Medicare, or commercial); and
           (5)	       The terms of the risk borne by the physician or group are comparable for all categories of
                      patients being pooled.

           Note that pooling and stop-loss requirements applicable to a group cannot be extended to a
           subcontracting level. For example:
                    �       A physician group has greater than 25,000 patients that meet pooling criteria.
                    �	      This group contracts with another physician group, which has 25,000 or fewer patients
                            and bears risk for referrals above 25%.
           The first group is exempt from stop-loss requirements; the second group must comply with stop-loss
           requirements and the MCO must comply with survey requirements.

7.	        For Question 7, note the type and the levels or thresholds of the stop-loss insurance if stop-loss coverage
           for the physician group or physician is required.

           Check the type of stop-loss, aggregate, individual per patient, or other coverage, and give the threshold
           as a dollar amount. Also, briefly describe the stop-loss coverage. If there is more than one threshold
           level, note that there are multiple levels and include an explanation. If “O” for other arrangements is
           checked or there are arrangements that merit explanation, describe the coverage ( attach a sheet for
           additional space).

           A description should include whether the coverage is:

           (1)     Combined (professional and institutional); 

           (2)     Broken down into institutional, professional and other components; 

           (3)        The deductible, co-insurance percentage, maximum liability/pay-out by the policy;

           (4)        Whether the stop-loss coverage applies to all costs or only the cost of referral services; and 



      PIP Reporting                                            20                                     OEI-05-00-00010
         (5)        Any other key features of the coverage.

         This information is found in Question 5 of the Worksheet.

         If providers can be aggregated because of the similarity of risk arrangements, the MCO should sort the
         providers by stop loss requirements and then use a separate Disclosure Form for each requirement. For
         example: 100 groups exceed the 25% risk threshold; 50 have a patient pool exceeding 25,000 (under a
         very similar risk arrangement); 25 have a patient pool of between 1,001 and 5,000 (under a very similar
         risk arrangement); and another 25 of these groups have a patient pool of between 8,001 and 10,000.
         The MCO should use three Disclosure Forms to represent the groups that aggregate into three stop loss
         requirements.

NOTE: For guidance and clarification on determining substantial financial risk, pooling of risk, and stop loss
requirements, see HCFA’s extensive 1997 PIP Qs & As document, available at HCFA’s web site.

PUBLIC REPORTING BURDEN:
 “According to the Paperwork Reduction Act of 1995, no persons are required to respond to a collection of information
unless it displays a valid OMB control number. The valid OMB control number for this information collection is 0938-0700.
The time required to complete this information collection is estimated to average 100 hours per response, including the time
to review instructions, search existing data resources, gather the data needed, and complete and review the information
collection. If you have any comments concerning the accuracy of the time estimate(s) or suggestions for improving this
form, please write to: HCFA, P.O. Box 26684, Baltimore, Maryland 21207 and to the Office of the Information and Regulatory
Affairs, Office of Management and Budget, Washington, D.C. 20503.”


HCFA will accept copies of state-mandated submissions in lieu of the Disclosure Form if such submissions include all the
necessary elements of information as required by HCFA and statute. MCOs may maintain records supporting the
Disclosure Forms in any format, as long as these records sufficiently document the disclosure information the MCO submits
and are available for inspection by appropriate regulators.




    PIP Reporting                                                21                                          OEI-05-00-00010
                                                  Cover Sheet


              Managed Care Organization (MCO) Disclosure Compliance Package

                         Under the Physician Incentive Regulation

                 Submitted to Health Care Financing Administration (HCFA)

                             or State Medicaid Agencies (SMA)




Name of MCO



Medicare Contract #H 	                             (PIP applies to Medicare+Choice, except for PFFS and non-
                                                   network MSA, and §1876 cost-based contractors)



MCO is owned/controlled by a Federally Qualified Heatlh Center or Rural Health Clinic (FQHC/RHC) or
consortium of FQHC/RHCs or includes FQHC/RHCs in its network:


                                  YES                NO


Printed Name of MCO Contact Person                                                         Phone #




This represents our organization’s disclosure compliance package submitted to HCFA or SMA. I certify
that the information made in this disclosure is true, complete and current to the best of my knowledge,
information and belief and is made in good faith.




Printed Name of CEO



Signature of CEO                                                                             Date:




Note:	             Please include this Cover Sheet as the first page of the MCO
                   Disclosure Compliance Package.




   PIP Reporting                                         22                                    OEI-05-00-00010
                                                                                                       OMB No. 0938-0700


                       PHYSICIAN INCENTIVE PLAN DISCLOSURE FORM

Managed Care Organization (MCO) Name: 

Contract Number: H# 

Reporting year 


CHECK ONE - Use this Disclosure Form to disclose the incentive arrangement between the first party (in the list
below) that makes payments under a provider contract to the second party (underlined on the list below) for services
to the MCO’s Medicare (or Medicaid) enrollees. Repeat forms as many times as needed to capture the various
levels of contractual relationships. 1 For simplicity, “provider” is used here to refer to the second party. See
instructions under “Single or aggregate disclosure” for aggregating either the first or second party. 2



(1)            MCO to physician group                           (2)         MCO to intermediate entity

(3)            MCO to individual physician                      (4)         Intermediate entity to physician group

(5)            Intermediate entity to physician                 (6)         Physician group to physician group

(7)            Physician group to physician                     (8)         Physician to physician

(9)            Intermediate entity to intermediate entity

1.	        The provider(s) named or counted should be the underlined provider in the line you checked
           above.
  A.       Name of Provider:
         Give name if one provider arrangement is being disclosed on this form.
  - OR -
  B.     Number of Providers:
         Give # of providers who are aggregated on this form; e.g., if #1 is selected, then give the # of groups;
         physician groups can be aggregated if risk arrangements are substantially the same and stop loss
         requirements are the same.


1. C. 	    Is provider an FQHC/RHC? Yes          ; No
           If providers are aggregated, see instructions for disclosing FQHCs.

1. D.      If #7 above is selected, give number of physicians who are:


           Members (e.g. owners, employees) of the group #      ; Contracted with the group #
           These numbers must equal the number of physicians given in I.B.


NOTE: If either #2 or #9 is checked above, this form is complete since stop loss requirements do not apply to
intermediate entities (IE). However, be sure to complete disclosures for the IE’s relationships with provider groups
and their physicians (#4 and #7) and with individual physicians (#5) because stop loss requirements apply to these
levels.




      PIP Reporting                                           23                                      OEI-05-00-00010
2.	        Is risk transferred to the provider? Yes        ; No
           Note: A bonus for low utilization of referral services is considered to be risk transference.
           If YES, check all the risk transfer methods with the provider and go to question 3.


           Capitation        ; Bonus    ; Withhold        ; Percent of Premium         ; Other
           Note: Consider the obligation for the provider to fund deficits as a “withhold”.
           Describe briefly:



3.         Is risk transferred for referrals? Yes      ; No
           Note: A bonus for low utilization of hospital, specialist or other services is considered to be a risk for
           referral services.
           If YES, then proceed to next question.


4.         Check all the referral risk transfer methods with the provider and go to question 5.


           Capitation        ; Bonus    ; Withhold        ; Percent of Premium          ; Other
           Note: Consider the obligation for the provider to fund deficits as a “withhold”.
           Describe briefly:



5.	        What percent of the total potential payment is at risk for referrals:            %
           If above 25% proceed to question 6; if 25% or below you have completed this disclosure.

6.	        Number of MCO patients served by the provider or the number of pooled patients, if patients can be pooled
           (see criteria for pooling in the instructions). Check one category:


           A     1-1,000; B   1,001-5,000; C      5,001-8,000; D        8,001-10,000; E      10,001- 25,000; F   25,000+


           If number is 25,000 or below, answer #7. If the number exceeds 25,000, you have completed this
           disclosure.

7.         State the type and amount of stop loss insuring the physician group and/or physician:


           Type: Aggregate         ; Individual       ; Other           (describe)


           Threshold: Professional $                ; Institutional $                ; Combined $
           Describe briefly:




      PIP Reporting                                                24                                       OEI-05-00-00010
DO NOT SUBMIT THESE FORMS TO HEALTH CARE FINANCING ADMINISTRATION OR STATE MEDICAID
AGENCIES. MCO OR OTHER ENTITY COMPLETING FORM SHOULD RETAIN WORKSHEET AND HAVE IT
AVAILABLE FOR REGULATORS IN THE EVENT OF AN AUDIT.


                      HCFA PHYSICIAN INCENTIVE PLAN WORKSHEET

Note:	     Each Worksheet should reflect a single incentive arrangement or an aggregate of multiple arrangements that are
           the same or similar.


           The Worksheet should be completed for the contractual arrangements that will be in effect on January 1 of the
           disclosure year.


 General Information:

______________________________________________________________

(Print name of entity completing this Worksheet - the first entity in the line checked below)



This Worksheet is being completed to describe the incentive arrangement between (check one below):



(1)         Managed Care Organization (MCO) to physician group

(2)         MCO to intermediate entity

(3)         MCO to individual physician

(4)         Intermediate entity to physician group

(5)         Intermediate entity to physician

(6)         Physician group to physician group

(7)         Physician group to physician

(8)         Physician to physician

(9)         Intermediate entity to intermediate entity



Specify parties to contract: _________________________________________________________
                               (the first entity in the line checked above)


and ____________________________________________________________________.
         (the entity underlined in the line checked above)


[NOTE: If Worksheet covers multiple contracts, name parties on a separate attachment.]


For the purposes of the regulation, the following definitions should be used:
Intermediate Enti ty = a physician-hospital organization (“PHO”), integrated delivery system, or individual practice association
[“IPA”] that subcontracts with physician groups or with another IPA.


Physician Group = a partnership, association, corporation, or other group that distributes income from the practice among
members, or an IPA that contracts with individual physicians.


NOTE: If either #2 or #9 is checked above, stop loss requirements do not apply to intermediate entities (IE). Therefore, such
entities may skip to the end of the worksheet and complete the signature and date information. However, be sure to complete
disclosures for IE’s relationships with provider groups and their physicians (#4 and #7) and with individual physicians (#5)
because stop loss requirements apply to these levels.


      PIP Reporting                                                  25                                OEI-05-00-00010
 Physician Group Member Panel Size: Estimated members as of contract year being disclosed.


1.)	        State below the breakdown of total members served under the incentive arrangement(s) to which this Worksheet applies
            by patient type (e.g. Medicare, Medicaid, and commercial). Note: A physician group can pool to arrive at the total
            number of MCO members to which this Worksheet applies if the criteria described in the HCFA Disclosure Guidance or
            Disclosure Instructions are met. If pooling is used, attach an explanation of how it was done to the Worksheet.



            Total Commercial members           _____________
            Total Medicare members             _____________
            Total Medicaid members             _____________


            Total                              _____________



Note: If the total Member Panel Size for commercial, Medicare and/or Medicaid exceeds 25,000, complete Worksheet
questions 2-4, then skip to the end of the Worksheet and provide signature and date information. Retain the Worksheet
for your records.




 Physician Incentive Plan Information:

                                                                          Medicare          Medicaid


2a.) Does the payment arrangement transfer risk?
                         YES____           ______
For example, bonuses, withholds, and capitation (whether or

not for referral services) transfer risk. Fee-for-service
                NO _____          ______
arrangements without withholds or bonuses do not transfer

risk.



2b.) Does the physician incentive

plan (e.g., capitation, withholds, or bonuses) cover
                     YES____           ______
services not furnished by the physician

or physician group? 
                                                     NO _____          ______


 (Note: Bonuses or withhold arrangements based on utilization or cost factors are included in these compensation
arrangements. Bonus arrangements based solely on quality or access factors are not considered.)



If response to 2a or 2b is NO, skip to last page and complete information about person completing form.




       PIP Reporting                                           26                                      OEI-05-00-00010
3.)	        If you answered YES to Question 2b, please check below the type or types of incentive(s) and fill in the percentage(s)
            where indicated and applicable. Note: If the contract does not limit the amount of risk for referral services to a set
            percentage, insert “100" as the percentage. Maximum compensation is defined as the maximum dollar amount that a
            physician or physician group might receive for either direct or referral services, or their administration. It does not
            include bonuses that are not related to referral levels. Maximum compensation means maximum possible theoretical
            compensation without regard to historical experience.




 Medicare Arrangements:
 line 1____Withhold             ____% Withhold                 [where percent of withhold = maximum possible withhold $$
                                                                                               maximum compensation $$
 ]

 line 2____Bonus             *____% Bonus        [where percent of bonus   =    maximum possible bonus $$
                                                                                    maximum compensation $$ ]

             *	        Do not include bonuses based on quality or access in either the calculation of maximum
                       possible bonus or the maximum compensation.

 line 3____Capitation            _____% Capitation [where percent of capitation
                                        = maximum capitation $ entity is potentially liable for referral services
                                                              maximum compensation $$ ]

                                ______% Of Total Compensation At Risk For Referrals (add lines 1, 2& 3)

                           IF % OF TOTAL COMPENSATION AT RISK FOR REFERRALS > 25% ,
                                       THIS IS SUBSTANTIAL FINANCIAL RISK



             Maximum compensation = maximum $ amount that might be received.



 The following information is requested of you on a voluntary basis. Bonuses unrelated to referral levels are not to
 be included in the determination of the referral risk percentage, but HCFA would like to learn more about their use
 in order to judge whether they should be included in the calculation in future years.

 line 4 _____Quality bonuses _____%          [where percent of bonus = maximum possible quality bonus $$
                                                                               maximum compensation $$                 ]




       PIP Reporting                                                 27                                         OEI-05-00-00010
Medicaid Arrangements:
line 1____Withhold            ____% Withhold                 [where percent of withhold = maximum possible withhold $$
                                                                                             maximum compensation $$
]

line 2____Bonus           *____% Bonus        [where percent of bonus    =     maximum possible bonus $$
                                                                                   maximum compensation $$ ]

          *         Do not include bonuses based on quality or access in either the calculation of maximum
                    possible bonus or the maximum compensation.

line 3____Capitation          _____% Capitation [where percent of capitation
                                     = maximum capitation $ entity is potentially liable for referral services
                                                           maximum compensation $$ ]

                              ______% Of Total Compensation At Risk For Referrals (add lines 1, 2& 3)

                        IF % OF TOTAL COMPENSATION AT RISK FOR REFERRALS > 25% ,
                                    THIS IS SUBSTANTIAL FINANCIAL RISK


          Maximum compensation = maximum $ amount that might be received.



The following information is requested of you on a voluntary basis. Bonuses unrelated to referral levels are not to
be included in the determination of the referral risk percentage, but HCFA would like to learn more about their use
in order to judge whether they should be included in the calculation in future years.

line 4 _____Quality bonuses _____%         [where percent of bonus = maximum possible quality bonus $$
                                                                           maximum compensation $$                    ]




Note: If no substantial financial risk is being transferred to providers who provide services to Medicare or Medicaid enrollees,
complete the date and signature information at the end of the Worksheet.




    PIP Reporting                                                  28                                          OEI-05-00-00010
 Stop-Loss Information: Fill in if % Of Total Compensation At Risk for Referrals Is > 25%

If incentive arrangements place either a physician or physician group at substantial financial risk, there must be aggregate or per
patient stop-loss protection. Aggregate stop-loss protection must cover 90% of the costs of referral services that exceed 25%
of potential payments. Per patient coverage may be through either single combined coverage, or through separate coverage for
institutional and professional services. Per patient stop-loss protection must cover at least 90% of the referral costs that exceed
the following threshold, or attachment point, amounts:


 Panel Size                        Single                            Separate                             Separate
                                   Combined                          Institutional                        Professional
                                   Limit                             Limit                                Limit



 1-1000                            $ 6,000                           $10,000                              $3,000

 1,001 - 5000                      $30,000                           $40,000                              $10,000

 5,001 - 8,000                     $40,000                           $60,000                              $15,000

 8,001 - 10,000                    $75,000                           $100,000                             $20,000

 10,001 - 25,000                   $150,000                          $200,000                             $25,000

 > 25,000                          none                              none                                 none




4.) Name of carrier/entity(s) through which stop-loss is provided:
                                                                                     Is this carrier/entity:
                                                                                     stop-loss carrier
                                                                                                MCO
                                                                                                intermediate entity
                                                                                                physician


                                                                                     Is this carrier/entity:
                                                                                     stop-loss carrier
                                                                                                MCO
                                                                                                intermediate entity
                                                                                                physician


5.) Describe the stop-loss coverage that
covers the incentive arrangement(s) that is being
reported on this Worksheet, for:
                                                           Medicare                             Medicaid
    (A) Professional services:
          Deductible                                       _____________                        _____________
          Co-insurance percent                             _____________                        _____________
          Maximum liability                                _____________                        _____________




    PIP Reporting                                                     29                                                 OEI-05-00-00010
          Does this cover (check one below):
                     Individual Physicians           YES   _____________           _____________
                                                     NO    _____________           _____________
                     Physician Group(s)              YES   _____________           _____________
                                                     NO    _____________           _____________


                                                           Medicare                Medicaid
           Is this stop-loss coverage:
                         Per patient                 YES   _____________           _____________
                                                     NO    _____________           _____________
                         Aggregate                   YES   _____________           _____________
                                                     NO    _____________           _____________



For professional services, describe the services           __________________________________________________
or nature of costs covered under the stop-loss,          __________________________________________________
including any exclusions, variations in coverage         __________________________________________________
amounts, and whether the stop-loss coverage applies__________________________________________________
to all costs or only referral costs. (If additional      __________________________________________________
space is required for this response, attach              __________________________________________________
additional pages.)


                                                           Medicare                Medicaid
     (B) Hospital/Institutional Services:
         Deductible                                        _____________           _____________
          Co-insurance percent                             _____________           _____________
          Maximum liability                                _____________           _____________


          Does this cover:
                     Individual Physicians           YES   _____________           _____________
                                                     NO    _____________           _____________
                     Physician Group(s)              YES   _____________           _____________
                                                     NO    _____________           _____________


          Is this stop-loss coverage:
                         Per patient                 YES   _____________           _____________
                                                     NO    _____________           _____________
                         Aggregate                   YES   _____________           _____________
                                                     NO    _____________           _____________



For hospital/institutional services, describe the          __________________________________________________
services or nature of costs covered under the              __________________________________________________
stop-loss, including any exclusions, variations in         _________________________________________________
coverage amounts, and whether the stop-loss                __________________________________________________
coverage applies to all costs or only referral costs.      __________________________________________________
(If additional space is required for this response,        __________________________________________________
attach additional pages.)                                  __________________________________________________


    PIP Reporting                                                30                                 OEI-05-00-00010
                                                             Medicare                      Medicaid
     (C) Combined (Professional and Institutional):
            Deductible                                       _____________                 _____________
            Co-insurance percent                             _____________                 _____________
            Maximum liability                                _____________                 _____________


            Does this cover:
                      Individual Physicians         YES      _____________                 _____________
                                                    NO       _____________                 _____________
                      Physician Group(s)            YES      _____________                 _____________
                                                    NO       _____________                 _____________


            Is this stop-loss coverage:
                         Per patient                YES      _____________                 _____________
                                                    NO       _____________                 _____________
                          Aggregate                 YES      _____________                 _____________
                                                    NO       _____________                 _____________


For combined forms of stop-loss, describe the                __________________________________________________
services or nature of costs covered under the                ___________________________________
stop-loss, including any exclusions, variations              __________________________________________________
in coverage amounts, and whether the stop-loss               __________________________________________________
coverage applies to all costs or only referral costs.        __________________________________________________
(If additional space is required for this response,          __________________________________________________
attach additional pages.)                                    __________________________________________________




  Date and Signature Information


Printed name and title of person who completed the Worksheet: __________________________________________


Name of organization/employer of person listed above: _________________________________________________


Telephone:_____________________________


Date: _______________________


I certify that the information made in this disclosure is true, complete and current to the best of my knowledge and belief and
is made in good faith.


_________________________________________
Signature


DO NOT SUBMIT THESE FORMS TO HEALTH CARE FINANCING ADMINISTRATION OR STATE MEDICAID
AGENCIES. MCO OR OTHER ENTITY COMPLETING FORM SHOULD RETAIN WORKSHEET AND HAVE
AVAILABLE FOR REGULATORS IN THE EVENT OF AN AUDIT.



    PIP Reporting                                                    31                                           OEI-05-00-00010
                                                                                              APPENDIX C


          Other Quality Targets Managed Care Organizations Pay

                         Providers Incentives For


          Our survey found some managed care organizations collect additional information about quality
          and access goals in addition to data related to financial targets. The CMS does not collect this
          information in its physician incentive plan reporting. The managed care organizations pay
          incentives for meeting goals in areas that we broadly categorized as preventive care services
          and disease management and other quality measures. Many Medicare + Choice managed care
          organizations use multiple incentive areas in their contracts with providers.

          The following two tables represent each of the broad categories describing the quality goals
          managed care organizations reported to us. In each category there are specific incentive targets
          that managed care organizations use in contracts with individual physicians, physician groups, or
          intermediate entities. Since managed care organizations can use multiple types of incentives in
          their contracts, a single managed care organization contract can be represented more than once
          in each table.

          The Preventive Care Services and Disease Management table shows the first category for
          which managed care organizations reported offering incentives. No managed care
          organizations reported using incentives for providing services to particular ethnic groups.
          However, incentives to treat or screen for specific illnesses (e.g., diabetes) may indirectly affect
          the health and well-being of particular ethnic groups.


                                Preventive Care Services and Disease Management

 Target Areas                        Contracts with             Contracts with            Contracts with
                                  Individual Physicians          Physician             Intermediate Entities
                                                                     Groups

                                    Yes          No            Yes            No        Yes              No

 Treating Chronic Illnesses          29          141           24             158        21              148

 Immunizations                       21          149           21             161        18              151

 Diabetes Eye Exams                  18          152           24             158        21              148

 Cancer Screening                    20          150           25             157        21              148

 Hypertension Screening              16          154           16             166        13              156

 Preventive Care Goals               25          145           30             152        27              142

 Services for Particular             0           170            0             182        0               169
 Ethnic Groups



PIP Reporting                                             32                                  OEI-05-00-00010
          The following table demonstrates that managed care organizations target areas like continuing
          education to encourage providers to remain knowledgeable in current medical practices and
          technology. The managed care organizations reward providers for medical charts thoroughness
          to help ensure records are current and organized. Thorough medical records facilitate quality
          medical care and also allow other managed care organizations providers to obtain accurate
          medical information to appropriately treat beneficiaries.


                                           Other Quality Indicators

 Target Areas                        Contracts with            Contracts with       Contracts with
                                  Individual Physicians         Physician        Intermediate Entities
                                                                  Groups

                                    Yes          No           Yes          No     Yes              No

 Continuing Education               28           142          21          161      19              150

 Medical Charts                     21           149          12          170      2               167
 Thoroughness




PIP Reporting                                          33                               OEI-05-00-00010
                                               APPENDIX D



                CMS Comments on this Report





PIP Reporting               34                 OEI-05-00-00010
                     ACKNOWLEDGMENTS


This report was prepared under the direction of William C. Moran, Regional Inspector General for
Evaluation and Inspections in Chicago and Natalie Coen, Deputy Regional Inspector General. Other
principal Office of Evaluation and Inspections staff who contributed include:

Joe Penkrot, Project Leader                          Linda Frisch, Program Specialist

Marco A. Villagrana, Lead Analyst                    Tricia Davis, Program Specialist

Erin Guay, Program Analyst

Tricia Fields, Program Analyst





PIP Reporting                                   35                                OEI-05-00-00010
